<html>
<title> - HARNESSING THE POWER OF IMMIGRANT-OWNED BUSINESSES TO BUILD BACK BETTER</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                HARNESSING THE POWER OF IMMIGRANT-OWNED 
                    BUSINESSES TO BUILD BACK BETTER

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             APRIL 28, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-009
             Available via the GPO Website: www.govinfo.gov             
             
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-562                      WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Blaine Luetkemeyer..........................................     3

                               WITNESSES

Mr. David Dyssegaard Kallick, Director of Immigration Research 
  Initiative, Fiscal Policy Institute, Latham, NY................     5
Mr. Daniel Fitzgerald, Acting Regional Director, San Diego & 
  Imperial Small Business Development Center (SBDC) Network, 
  Southwestern Community College, National City, CA..............     7
Ms. Jaja Chen, Co-Owner & Chief of Strategic Initiatives & 
  Business Partnerships, Waco Cha, LLC, Waco, TX.................     9
Mr. Jose Ponce, President, Re/Max Gold, Fenton, MO...............    11

                                APPENDIX

Prepared Statements:
    Mr. David Dyssegaard Kallick, Director of Immigration 
      Research Initiative, Fiscal Policy Institute, Latham, NY...    35
    Mr. Daniel Fitzgerald, Acting Regional Director, San Diego & 
      Imperial Small Business Development Center (SBDC) Network, 
      Southwestern Community College, National City, CA..........    38
    Ms. Jaja Chen, Co-Owner & Chief of Strategic Initiatives & 
      Business Partnerships, Waco Cha, LLC, Waco, TX.............    41
    Mr. Jose Ponce, President, Re/Max Gold, Fenton, MO...........    44
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Boundless Immigration Inc....................................    46
    FWD.US Immigrant Competitive Advantage Report................    48
    Latino Landscape Network (LLN)...............................    61
    National Venture Capital Asociation (NVCA)...................    63
    Sayuri Tsuchitani Statement..................................    71

 
HARNESSING THE POWER OF IMMIGRANT-OWNED BUSINESSES TO BUILD BACK BETTER

                              ----------                              


                       WEDNESDAY, APRIL 28, 2021

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:15 p.m., via 
teleconference. Hon. Nydia Velazquez [chairwoman of the 
Committee] presiding.
    Present: Representatives Velazquez, Crow, Mfume, Phillips, 
Newman, Bourdeaux, Chu, Evans, Delgado, Houlahan, Mr. Kim of 
New Jersey, Craig, Schneider, Luetkemeyer, Williams, Hagedorn, 
Stauber, Ms. Young Kim of California, Van Duyne, Salazar, and 
Fitzgerald.
    Chairwoman VELAZQUEZ. Good afternoon. I call this hearing 
to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I want to thank everyone, especially our witnesses for 
joining us today for our Committee's remote hearing. I want to 
make sure to note some important requirements.
    Let me begin by saying that standing House and Committee 
rules and practice will continue to apply during remote 
proceedings. All Members are reminded that they are expected to 
adhere to these standing rules including decorum when they are 
participating in any remote event.
    With that said, the technology we are utilizing today 
requires us to make some small modifications to ensure that 
Members can fully participate in these proceedings. House 
regulations require Members to be visible through a video 
connection throughout the proceeding, so please keep your 
cameras on. If you participate in another proceeding, please 
exit and log back in later.
    In the event a Member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available Member of the same party and I 
will recognize that Member at the next appropriate time slot 
provided they have returned to the proceeding.
    Should a Member's time be interrupted by technical issues, 
I will recognize that Member at the next appropriate spot for 
the remainder of their time once their issues have been 
resolved. In the event a witness loses connectivity during 
testimony or questioning, I will reserve their time as staff 
address the technical issue. I may need to recess the 
proceedings to provide time for the witness to reconnect.
    Finally, remember to remain muted until you are recognized 
to minimize background noise like right now.
    In accordance with the rules established under H.R. 965, 
staff have been advised to mute participants on the event there 
is inadvertent background noise. Should a Member wish to be 
recognized, they must unmute themselves and seek recognition at 
the appropriate time.
    Today's hearing serves as a reminder that the immigrant 
story is the American story. For centuries, the United States 
has welcomed immigrants from all around the world. These 
migrants often risk their safety and well-being to get here. 
They cross vast deserts, tumultuous oceans, and rough terrain, 
all in the pursuit of a better life and the American dream.
    In turn, these immigrants have made our country better. For 
generations, they have fueled American small businesses and 
embodied the entrepreneurial spirit that helps make our country 
great. Immigrant entrepreneurs are a dynamic group, starting 
businesses at a higher rate than the general population and 
accounting for 28 percent of main street business owners. These 
immigrant business owners run many of the institutions that 
serve as the pillar of local communities. They own over 50 
percent of businesses that supply necessities, like gas 
stations, drycleaners, laundromats, and grocery stores.
    These entrepreneurs are force multipliers in local 
economies. They buy local products, create local jobs, and make 
communities more attractive places to live. Immigrants also 
have an outside impact in the world of big business. Immigrants 
founded 44 percent of 2020 Fortune 500 companies, employing 
more than 13.7 million people worldwide.
    Despite the great success that immigrant entrepreneurs have 
enjoyed, 2020 presented monumental setbacks and obstacles. The 
pandemic closed immigrant-owned businesses at disproportionate 
rates. At its lowest point in April 2020, COVID has lowered the 
number of active immigrant business owners by approximately 36 
percent. In other words, we lost over a million immigrant 
business owners between February and April. The pandemic 
created new challenges for immigrant entrepreneurs, but it also 
exacerbated familiar obstacles that have haunted them for a 
long time.
    When it comes to foundational areas like business 
mentorship and accessing capital, immigrants are at a 
disadvantage. Immigrants often lack the professional networks 
used by many entrepreneurs for guidance and support. They also 
struggle to access the capital needed to start and run a 
business. Whether due to poor credit history, limited financial 
literacy, or a lack of access to mainstream financial services, 
immigrant-owned firms have a harder time obtaining the funding 
needed to be successful.
    The SBA offers resources for immigrant entrepreneurs to 
combat this obstacle. SBA resource partners, like SBDCs, WBCs, 
and SCORE, counsel and advise immigrant businesses so they can 
overcome these barriers. Community development financial 
institutions offer lending and microlending to service low- to 
moderate-income borrowers from diverse backgrounds. These 
organizations do vital work. But the road to recovery is long 
and we must do more to support immigrant businesses. If our 
economy is to recover, we need immigrant businesses operating 
at full strength.
    As was the case in the aftermath of the Great Recession, 
the businesses that suffered the most during COVID will play a 
significant role in our recovery, as inncreased vaccination 
diminished the severity of the public health crisis and aided 
the return to normalcy. New businesses started by immigrants 
will drive local economic growth.
    Our witnesses today are a testament to what is possible 
when immigrant business owners receive adequate support. I look 
forward to hearing your testimony and discussing how we can 
harness the power of immigrant entrepreneurs to help rebuild 
our economy.
    I would now like to yield to the Ranking Member, Mr. 
Luetkemeyer, for his opening statement.
    Mr. LUETKEMEYER. Thank you, Madam Chair, and thank you for 
holding this hearing, especially to discuss the unique issues 
immigrant-owned small businesses face.
    Each of us have immigrant-owned small businesses in our 
districts that are highly integral to our communities. The 
ability to start anew, pull yourself up by your bootstraps, and 
own a small business are all key aspects of the American dream 
that many immigrants are seeking in the United States.
    However, immigrant small businesses face the same difficult 
tasks as all small businesses face--how to survive the pandemic 
and having to deal with the daunting deliverable tax policies 
and over regulatory policies looming over their heads. This is 
not good for any small firm.
    No matter how you slice it, higher taxes are a burden for 
small businesses, both the owners and their employees. A 
mandatory higher minimum wage and excessive, unnecessary 
regulations are a burden for small businesses, small business 
owners, and their customers. The continuance of stringent 
COVID-19 mandates is burdensome to small business owners and 
their employees and their customers. If I sound like a broken 
record, that is intentional. The list of liberal policies that 
this administration and this majority want to enact that will 
have adverse effect on small businesses goes on and on and on.
    While no one can deny that the pandemic's emergency period 
is unparalleled, what we can cling to is the knowledge that 
prior to COVID-19, small businesses were operating at historic 
levels. We know that because of the previous administration's 
policies, and specifically the Tax Cuts and Jobs Act, small 
businesses' optimism reached record heights and the 
unemployment rate to an impressive 3.5 percent. When small 
businesses have this optimism, coupled with lower taxes and 
fewer regulations, they are more comfortable taking risks and 
our communities receive new innovations that make the world a 
better place and a safer place. These are the characteristics 
that drive our economy forward and keep Main Street afloat.
    To get back to our pre-COVID-19 small business environment, 
we must reject these new liberal policies and continue the 
previous administration's pro-growth policies focused on tax 
reform and targeted, smart regulation. These are commonsense 
principles that allow small businesses to invest their hard-
earned dollars as they see fit. Unfortunately, the Biden 
administration and the left's economic policies, along with the 
COVID-19 protective measures that continue to hold small 
businesses back, cause this group to face unprecedented 
challenges. Once busy Main Streets remain dormant in locations 
that continue these harsh measures instituted by state and 
local governments.
    However, state and local governments that have lifted 
mandates have seen small businesses begin to fight their way 
back to the busy Main Streets of the pre-pandemic days. As the 
initial emergency period wore on, we know Congress worked 
diligently as a bicameral, bipartisan nature to begin the PPP 
and EIDL programs. In addition, Congress extended the Debt 
Relief program for new and existing 7(a), 504, and microloans. 
Bipartisan congressional efforts also created the Shuttered 
Venue Operators Grant Program for venues, theaters, and 
museums. These programs have aided small businesses in every 
congressional district. They have helped all business owners of 
all backgrounds without limiting access to specific groups.
    While these grant and loan opportunities have been vital in 
keeping small businesses afloat during the emergency period, 
these programs do require diligent oversight. The December 
COVID relief bill alone delivered $325 billion to the Nation's 
smallest and hardest-hit businesses and industries. But 
realize, when billions of taxpayer dollars are being used, we 
must insist that they are used prudently. As I have said 
before, this Committee must ensure that American taxpayer 
dollars are safeguarded and protected.
    I look forward to the testimony of our witnesses today and 
thank them for joining us. It is my hope that with your voices, 
we can take the American dream, put it back into play, and 
return to a pro-growth economy, rather than the destructive 
pro-regulation path we are on now. Advancing all small business 
interests must continue to be a priority of this Committee.
    Madam Chair, with that I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Luetkemeyer. The 
gentleman yields back.
    I would like to take a moment to explain how this hearing 
will proceed. Each witness will have 5 minutes to provide a 
statement, and each Committee Member will have 5 minutes for 
questions. Please ensure that your microphone is on when you 
begin speaking and that you return to mute when finished.
    With that, I would now like to introduce our witnesses.
    Our first witness is Mr. David Kallick, Deputy Director of 
the Fiscal Policy Institute and Director of the institute's 
immigration research. He is the author of numerous studies of 
the economic and fiscal aspect of immigration at the national, 
state, and local level. In addition to his work at the Fiscal 
Policy Institute, he is a Visiting Assistant Professor at the 
Pratt Institute's Graduate School for City and Regional 
Planning.
    Welcome, Mr. Kallick.
    Our second witness is Mr. Daniel Fitzgerald, who works for 
Southwestern Community College as the Acting Regional Director 
for the San Diego Imperial SBDC Regional Network. He also 
oversees the San Diego and Imperial Women's Business Center and 
is the Fiscal Agent for the California Women's Business Center 
Network. For over 20 years, Daniel has been a prominent fixture 
in the small business communities of San Diego County and 
Imperial County. His leadership has made a significant impact 
on thousands of businesses and multiple industries throughout 
the state of California. Welcome.
    Our third witness is Ms. Jaja Chen. Ms. Chen is Co-Owner 
and Chief of Strategic Initiatives and Business Partnerships of 
Waco Cha, LLC, a bubble tea company based in Waco, Texas. She 
is also a licensed clinical social worker supervisor 
specializing in trauma, burnout, and perinatal mental health 
through her private practice. She received both her Bachelor's 
and Master of Social Work through the Diana Garland School of 
Social Work at Baylor University. Welcome.
    Now I would like to yield to our Ranking Member to 
introduce our final witness.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    It is indeed my pleasure to introduce one of my 
constituents from Fenton, Missouri, Mr. Jose Ponce, a very 
successful real estate agent with Re/Max St. Louis Gold Homes 
for over 19 years. As a successful Hispanic entrepreneur, Jose 
serves as a mentor to young real estate agents and offers his 
assistance to the Hispanic community through his bilingual 
services. He continues to advocate for the St. Louis community 
and business owners everywhere. He has been named a 30 under 30 
recipient from the St. Louis Business Journal and has been 
featured in several St. Louis Business Journals. In December 
2016, he began the new owner of Re/Max Gold and currently has 
five offices, 22 satellite offices, 66 agents, and a referral 
company, Gold Realty, in which he oversees as president. 
Outside of his business, Jose was a professional boxer and 
continues to work with local fighters and co-owns Sweat Gym in 
Clayton, Missouri.
    Mr. Ponce, thank you for being with us today. I look 
forward to your testimony. And I know as a small business owner 
you are taking that same fighting spirit from your younger days 
to your own business and to this Committee today. Thank you 
very much.
    And Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Kallick, you are recognized for 5 minutes.

STATEMENTS OF DAVID DYSSEGAARD KALLICK, DIRECTOR OF IMMIGRATION 
     RESEARCH INITIATIVE, FISCAL POLICY INSTITUTE; DANIEL 
  FITZGERALD, ACTING REGIONAL DIRECTOR, SAN DIEGO & IMPERIAL 
SMALL BUSINESS DEVELOPMENT CENTER (SBDC), NETWORK, SOUTHWESTERN 
  COMMUNITY COLLEGE; JAJA CHEN, CO-OWNER & CHIEF OF STRATEGIC 
INITIATIVES & BUSINESS PARTNERSHIPS, WACO CHA, LLC; JOSE PONCE, 
                     PRESIDENT, RE/MAX GOLD

             STATEMENT OF DAVID DYSSEGAARD KALLICK

    Mr. KALLICK. Thank you for the introduction, and thanks for 
inviting me.
    There are plenty of issues that are controversial about 
immigrants, but one thing we can say with a great deal of 
certainty is that immigrants are highly entrepreneurial. I am 
going to talk today about a particular nexus, the immigrant 
entrepreneurship, and the rebuilding of the U.S. economy after 
their COVID pandemic.
    What will America's Main Streets look like as we return to 
living our lives without fear of COVID-19? Hopefully soon.
    It is not hard to imagine two rather different scenarios. 
On the one hand, a Main Street-centered rebuilding could pick 
up on some of the innovations we have seen during the COVID 
period: outdoor restaurants, expanded pedestrian areas, bike 
paths that have transformed many downtowns and urban centers in 
very positive ways. This scenario would entail Main Streets as 
vibrant places where people meet, walk around, and poke into 
locally owned stores and restaurants.
    On the other hand, is I would say an equally likely 
scenario that is much more centered on online and outskirts 
rebuilding and leaves Main Streets relatively empty. That 
scenario is centered around Amazon and other online retailers 
selling us most of what we buy, big box stores drawing 
customers away from Main Streets and towards the outskirts of 
town, and restaurants that are franchised and look much the 
same everywhere. To put it a little differently, once we can go 
to stores and restaurants, what small businesses will be there 
for us to go to?
    Here is where immigrants come in. Immigrants are, in 
general, more likely to be business owners but they are far 
more likely to be owners of independent Main Street businesses, 
the shops and services that are the backbones of neighborhoods 
around the country.
    In a report that the Fiscal Policy Institute published 
together with the American Society/Council of the Americas, we 
found that immigrants make up 16 percent of the labor force, 18 
percent of small business owners, and 28 percent of Main Street 
business owners. So that is a number you also heard from 
Representative Velazquez. Twenty-eight percent of all of the 
Main Street businesses around the country are owned by 
immigrants.
    Immigrants also play a big role in the growth of Main 
Street businesses. There are 31 major metro areas where 
immigrant business owners represent all of the net growth in 
Main Street business ownership between 2000 and 2013. Among 
them are New York, Chicago, Houston, or Washington metro areas. 
Maybe no big surprise there. But there are also areas where 
immigrants make up a smaller share of the overall population, 
yet still make up all of the net gain in the number of Main 
Street business owners. For example, Baltimore, Detroit, 
Milwaukee, Pittsburgh, Birmingham, and Buffalo metro areas.
    So, to some extent, I can make a prediction. I can predict 
that, as in the past, immigrants will play a central role in 
this revitalization of America's Main Streets after COVID.
    But policy will matter. Immigrants faced extraordinary 
challenges over this past year. They were more exposed to COVID 
than the population overall, and immigrants got sick and died 
in disproportionate numbers. The Paycheck Protection Program 
(PPP) was the most important support for small businesses in 
the pandemic recession, but it well known that people of color 
and immigrants were far less likely to benefit from the PPP 
loans. Industries and geographic areas where immigrants are 
prevalent are very often the same as those that were hardest 
hit by the pandemic recession.
    So, as we build back--``build back better'', if you like--
Congress should be thinking about how to correct that imbalance 
and nurture the growth that immigrant businesses have always 
been a part of.
    To name just one example, will help for a small business 
depend on a relationship to a big bank or will businesses that 
do their banking with a Community Development Finance 
Institution also get aid? Or businesses that may not have a 
banking relationship at all?
    I am not here today to propose a fully fleshed-out view of 
how the rebuilding can happen. But I would like to underline 
what seems to me an important fork in the road ahead. One path 
leads to a rebuilding that is centered around Main Streets. 
Another is dominated by online shopping, big box stores, 
chains, and franchises. All of these kinds of businesses have 
their place, but it would be a pity, to my mind, if the big 
boxes wind up with a bigger share of our economy than they 
would have if it had not been for COVID.
    Thank you for having me.
    Chairwoman VELAZQUEZ. Thank you.
    Now we recognize Mr. Fitzgerald for 5 minutes.

                 STATEMENT OF DANIEL FITZGERALD

    Mr. FITZGERALD. Thank you. It is an honor to speak today on 
a topic that is so very important to me.
    Living and working along the US-Mexican border and in a 
city of immigrants in San Diego, I have seen many times over 
the entrepreneurial energy in recent migrants to the U.S. The 
passion, creativity, and work ethic needed for successful 
entrepreneurs is so very common in people who have fought to 
come to the U.S. My name is Daniel Fitzgerald and I serve as 
the acting regional director for the San Diego and Imperial 
Small Business Development Center (SBDC) Network, hosted by 
Southwestern Community College District. As one of the 62 SBDC 
networks funded by the U.S. Small Business Administration, our 
work in the southernmost part of California is to assist small 
business owners to grow and to help entrepreneurs to start 
their business. Of course over the past 13 plus months our work 
has been primarily focused on helping small business owners 
retain their business by accessing Federal, state, and local 
disaster assistance. Beyond the capital assistance, a lot of 
work has been to help small business owners navigate the 
changing public health rules and still be able to reach their 
customers.
    The variety of COVID capital assistance programs has been 
critical to the survivability of small business. However, 
access to the programs was varied. In our region, two of the 
largest barriers faced were confusion over the different 
programs and access to information in their own language. Our 
SBDC Network has the capacity to serve in over 15 different 
languages. A significant portion of our team is fluent in 
Spanish, but the other common languages include Arabic, 
Vietnamese, Swahili, Korean, Farsi, Tagalog, Mandarin, and 
Somali. Since the onset of the pandemic, our network has 
provided over 2,000 hours of one-on-one counseling in a 
language other than English. We have also provided many 
webinars for PPP, EIDL, and state and local capital programs in 
Spanish, Arabic, and other languages. This has been critical to 
help businessowners access capital.
    When the first PPP deadline was approaching last June, an 
owner of a nail salon was put in contact with us. She primarily 
speaks Vietnamese. One of our advisors went to her business, 
discovered her email inbox was full and she had not been 
receiving emails for 2 months. He worked with her to put 
together her financial records, worked with a local lender, and 
she was able to get her PPP loan. This is one of many examples 
of the hands-on, in-language assistance we at the SBDC provide 
to recent migrants during the pandemic.
    Beyond the response and relief efforts the COVID-19 
pandemic has necessitated, the San Diego and Imperial SBDC 
Network has an ongoing commitment to supporting small 
businessowners and entrepreneurs who are immigrants. For many 
years, our programming has provided support, in particular for 
small business owners from Latin America who primarily speak 
Spanish.
    Fernando Miramontes came to our SBDC in Imperial County, a 
farming area that borders with Mexico. As a migrant from Mexico 
and having been in trucking for many years, he wanted to start 
his own transportation company. Working with our SBDC advisor 
and Accion (now Accessity), a local non-profit lender, he was 
able to complete his business plan, do the required legal 
steps, and obtain capital to purchase a truck to start his 
business. In 2018, thanks to additional funding from the State 
of California and increased funding from the SBA, we were able 
to expand our network of sub-awarded service centers from four 
to eight. Two partners in particular were added to increase our 
SBDC Network's reach into immigrant communities by awarding 
service center contracts to both the Asian Business Association 
of San Diego and the International Rescue Committee.
    At the SBDC, we strive to provide both linguistically and 
culturally correct training and counseling. Besides providing 
assistance in the preferred language of the client, our SBDC 
advisors also base assistance in knowledge and understanding of 
the business environment and regulations in the country of 
origin. For example, an SBDC advisor helping an entrepreneur 
start, helps them understand and navigate the roles of 
different governmental entities in the U.S., such as how the 
county governs health codes, the state governs sales tax, and 
the city will provide a business license.
    Business owner Naw Say Phaw came to San Diego in 2014 as a 
refugee from Malaysia. Upon resettling in San Diego, Naw Say 
wanted to start her own business but had no previous experience 
and was also unsure of the various licenses, permits and 
regulations required on the local and state levels. IRC came to 
the international rescue community SBDC for help, and after 
receiving assistance, including a small loan, AYA Mini Market 
was launched.
    A major program at the San Diego and Imperial SBDC Network 
is assisting entrepreneurs to start in-home childcare centers 
and also to support childcare businesses to expand. The SBDC 
provides extensive childcare startup training, helping 
primarily women to navigate the state rules to open a childcare 
center, then to work with local organizations who provide 
vouchers for childcare for working people in obtaining clients. 
These childcare providers support the community not just by 
having a business but providing critical childcare for working 
parents by someone who is from their own community, speaks 
their native language, and follows their cultural norms.
    Today, the SBDC programs also work to help the childcare 
businesses expand, including a program with the San Diego and 
Imperial Women's Business Center and Southwestern College's 
Family Studies department. And the SBDC works to help the 
businesses develop into larger childcare centers, including 
Sarah and Rafat Illaian who worked with our North San Diego 
SBDC to obtain a $250,000 SBA-backed loan.
    From childcare, to restaurants, to the Internet of things, 
the immigrant entrepreneur and small business owner is critical 
to current and future of our small business ecosystem. As our 
economy comes back from the COVID-19 pandemic, the passion, 
hard work, and creativity of our immigrant communities can and 
will play a critical part to helping our recovery to be 
inclusive and even better. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Daniel Fitzgerald.
    Now we recognize Ms. Chen for 5 minutes.

                     STATEMENT OF JAJA CHEN

    Ms. CHEN. Good afternoon, Chairwoman Representative 
Velazquez, Ranking Member Luetkemeyer, and distinguished 
members of the Committee on Small Business. Thank you for the 
honor providing testimony before the House Committee on Small 
Business today.
    My name is Jaja Chen and I am here today on behalf of my 
small business, Waco Cha, representing the over 3.4 million 
immigrant-owned businesses in the U.S., approximately 2 million 
of which are owned by an Asian American Pacific Islander 
(AAPI). I am a daughter of Taiwanese immigrants. My parents are 
from a small farm town on the East Coast of Hualian. My parents 
and ancestors are Hakka Chinese, HakkaYin, in which the literal 
translation means guest families. I come from a line of Hakka 
farmers, educators, and business owners that worked hard and 
moved across lands as guest people to pave the pathway for what 
we do today.
    As a child, I remember going to Asian supermarkets in 
Oklahoma City with my mom to help her find ingredients to 
prepare Taiwanese dishes. I observed how to make boba tea, 
dumplings, and other delicious food at home. At the age of 13, 
I moved to China with my parents as they returned overseas to 
work and I completed high school in Taiwan and eventually moved 
to Waco, Texas for college. My husband Devin Li, an immigrant 
first-generation from Guangzhou, China, and I met at Baylor 
University. After I completed school, we got married and 
settled in Waco due to job opportunities, I as a social worker 
and Devin as an engineering high school teacher. Throughout our 
time in Waco post-graduation, we enjoyed getting involved in 
the downtown community by supporting local small businesses. 
Devin's students at a local Waco ISD high school, the majority 
of whom identify as Hispanic or Black, often voiced feelings of 
not belonging and thoughts of not being able to see 
representation of their cultures within downtown development.
    As immigrants and children of Chinese and Taiwanese 
immigrants, Devin and I both resonate with this experience. In 
fact, we would often drive on weekends to Dallas or Austin to 
stop by an Asian grocery store, similar to what I did as a 
child with my mom, and we hoped for Waco to one day have an 
authentic boba tea cafe. Well, rather than hoping for this to 
one day happen, we were inspired to start a business that 
celebrates diversity and cultures. We opened our Saturday 
morning Waco Cha popup tent in summer of 2018. That first year 
was filled with time spent educating our community about boba 
and Taiwanese and Chinese culture. We even had one individual 
come up to us yelling that we are not truly Texan and spit out 
the samples that we offered them.
    After 1 year of popups, we upgraded from the tent to our 
mobile tea truck, and then we grew our first storefront this 
past year in downtown Waco alongside an additional launch of 
our Chinese dumpling food concept in the midst of the COVID-19 
pandemic. In fact, the week that our boba tea shop was cleared 
by the Health Department to open, was the week that Waco's 
shelter-in-place order was enacted. During the early months of 
the pandemic, we had to quickly pivot our business. We delayed 
our new storefront opening for about 3 months and took 
precautionary steps by shutting down our operations when some 
team members had potential COVID-19 exposures.
    We also had many challenges navigating the SBA PPP process, 
but despite this, our community and guests showed up to support 
us by pre-purchasing gift cards to help us stay afloat, and 
many also came regularly to show support as we used our mobile 
tea truck to offer drinks.
    Our values are lived out both within our team through the 
ways we strive to represent our culture through our shop and 
products and the ways we seek to hire diverse team members. Our 
culture values hospitality and that really leads us to find 
deep joy in developing business partnerships. In fact, one of 
my greatest joys this past year in our community work was 
partnering with the NAACP to host nonpartisan voter 
registration booths on-site at our boba tea shop.
    As we continue growing in profit, we are also seeking to 
give back to local nonprofits around us, and this has included 
contributing portions of our profits recently to support 
nonprofit funds that benefit the AAPI community, particularly 
with the rise of anti-Asian hate crimes within our nation. We 
now have 19 team members on staff and look forward to 
continuing to grow our team as we open our second boba tea shop 
in downtown Temple, Texas this upcoming year.
    I am thankful to the House of Representatives and Committee 
members as you continue to highlight the gift of immigration, 
particularly as we recover from the COVID-19. Our lives in 
America are enriched and our economy is stronger when we 
celebrate the diverse and rich perspectives, stories, and 
experiences of immigrants. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Ms. Chen.
    Now we recognize Mr. Ponce for 5 minutes.
    Mr. Ponce, you may need to unmute.

                    STATEMENT OF JOSE PONCE

    Mr. PONCE. Thank you, Madam Chair.
    My name is Jose Ponce, an entrepreneur from the St. Louis 
region. I am honored to be before you and this Committee today 
to speak about the challenges and opportunities in the Hispanic 
entrepreneur community.
    I have invested and owned various businesses in the last 20 
years. I am proud to be an Hispanic entrepreneur. Hispanic 
entrepreneurs business ownership has surged in the past decade, 
outpacing any other ethnic group. According to the new study 
from the Stanford Latino Entrepreneur Initiative in 2020, this 
study shows that in the pat 10 years, Latino business owners 
have grown 34 percent compared to 1 percent for all other 
owners in the United States.
    This is good news and bad news in these numbers. As a 
culture, Hispanics gravitate toward starting businesses and 
being their own boss, creating a legacy for their families. But 
there are strong barriers for growth. One extreme barrier is 
discrimination when it comes to banks and lending. The recent 
study in 2020 that found that 20 percent of Latino-owned 
businesses that applied to national banks for loans over 
$100,000 received funding, compared with 50 percent of White-
owned businesses. The discrepancy was even larger when looking 
at firms with annual revenues over $1 million who were 
requesting similar-size loans. Twenty-nine percent of Latino-
owned businesses go the loans versus 76 percent of White-owned 
businesses. Even after controlling for business performance 
measures, the odds of loan approval from national banks were 60 
percent lower for Latino-owned businesses.
    I have personally experienced this when I sought funding 
from banks. For example, when I was purchasing my real estate 
company, I had to personally fund $350,000 of the $500,000 
purchase price. Even with my 20 years of experience, there has 
been times that I was not able to acquire bigger opportunities 
because of the barriers of bank funding.
    I believe one problem may be the continued decline of 
independent banks who many feel better understand the needs of 
the local communities. The independent banks simply have a 
better pulse on what is happening in their local community.
    Loans from the bigger banks tend to be more concentrated on 
high technology rather than traditional business. (That is on 
Bates and Bradford, 2007.)
    The Stanford study makes an especially important point. The 
study states, ``Latinos are going to be one-third of the 
population in the future and their success will have an 
enormous impact on the future economic success of the United 
States. If the Latino portion of the economy is not more 
developed economically, the whole economy will suffer.''
    So how do we harness the power of the immigrant? Maybe it 
is a better awareness of how the government can assist this 
community, such as the Small Business Administration as stated 
earlier. Possibly, the Hispanic community could be educated on 
how to leverage the existing Federal opportunity zones. 
Additionally, I believe the large banks need to be better 
educated on the benefits of investing with Hispanic 
entrepreneurs and their busineses. Relationships between my 
fellow Hispanic entrepreneurs and traditional banks need to be 
strengthened. The old saying goes, ``People do business with 
people they know and like.''
    We have proven we are a community of hardworking 
entrepreneurs. There are about 400,000 Latino-owned employer 
businesses in the United States before the panic. They 
generated nearly $500 billion in annual revenue and employed 
3.4 million people. We want the same equal opportunity to grow 
our businesses and have access to capital when we have shown we 
have experience to take on bigger opportunities that will fuel 
the U.S. economic engine. We have the ``can do'' American 
spirit that historically built this country.
    Madam Chair, it has been an honor to speak to this 
Committee today. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Ponce.
    Now I will begin by recognizing myself for 5 minutes. Thank 
you so much to all the witnesses for your compelling stories 
and sharing the important role that immigrants play in our 
economy.
    Mr. Kallick, I would like to address my first question to 
you.
    Immigrant-owned businesses were particularly important in 
the recovery from the Great Recession, adding more than 200,000 
jobs, thousands of small businesses between the period of 2007 
to 2014, a period when the economy was shedding jobs. They may 
not have fared as well given the nature of the COVID-19 
pandemic. How do we ensure these businesses are fully utilized 
for this recovery as well?
    Mr. KALLICK. Thank you for the question.
    Yeah, I mean, I think it is instructive to think about the 
comparison to what happened after the Great Recession where I 
would say I think it is right that the immigrant small 
businesses played a big role in the revitalization after the 
Great Recession. I think immigrants and people of color were 
also devastated during that recession by home laws. And so I 
think there is a real danger to my mind that the destruction of 
capital gains and of people's wealth, people of color, 
immigrants during the Great Recession, they lost their homes. 
And during this recession they could be losing their 
businesses. So I think we really need to pay a lot of attention 
to I think, you know, not the question of whether there is some 
special program but how do we make sure that people are not 
excluded from the rebuilding process as they have been already 
in various ways.
    I think we heard a little bit of a thread going through 
everything is the question of access to capital. And how do you 
make sure that it is not just immigrants relying on big banks 
where they may not have very good relationships to be able to 
get business loans.
    Chairwoman VELAZQUEZ. Thank you, Mr. Kallick.
    Ms. Chen, I see you and I hear you. I have the honor of 
representing two Chinatowns in my district out of three here in 
New York City. It is no secret that the public rhetoric around 
the COVID-19 pandemic and China have fueled anti-Asian American 
hate incidents. Have you or anyone you know experienced this 
firsthand? Has it made you fear for the safety of your business 
or your customers?
    Ms. CHEN. Thank you, Chairwoman Velazquez, for that 
question. In fact, last night I was at a protest on campus at 
Baylor University because just recently a student near campus 
was physically assaulted and attacked and had racial slurs 
spoken against them near campus. And so I was standing with the 
AAPI community last night at this protest. I, myself, 
personally have not experienced the physical attacks against me 
but I do have fears or concerns regarding attacks potentially 
impacting my team members or even my own business, especially 
as we are more outspoken and continue to speak up and stand 
against this issue.
    Chairwoman VELAZQUEZ. Any suggestions from your end that we 
need to do in order to tone down this hateful rhetoric and 
build better relationships with the AAPI community?
    Ms. CHEN. Well, you know, outside of my work as a boba tea 
entrepreneur, I am a trauma therapist and social worker. And so 
with the rise of all the hate crimes, I personally have even 
seen a rise of communities within the AAPI community seeking 
therapy. And so I know that there is such a mass need for 
mental health support and accessible support. And so I urge 
Congress to continue funding advocacy centers or even local 
community mental health centers that provide multilingual, 
multicultural services. And that is particularly the case in 
places like Waco where it is a bit more rural and so there is 
less funding opportunities, you know, in our community for 
accessible mental health.
    And in addition, I think it just starts with the 
leadership. Right? It is important as leaders for us to stand 
and to speak against anti-Asian hate crimes. And it really 
starts at the leadership setting that tone with not just 
speaking about the importance of being against these hate 
crimes but also having tangible policies or even tangible 
evidence of, okay, this is what we are going to do beyond----
    Chairwoman VELAZQUEZ. Thank you. I have seen the economic 
impact that this has had in our communities. I toured Chinatown 
communities in Manhattan, lower Manhattan and in Brooklyn, and 
saw how in the beginning they were closing their doors after 
5:00 because they were really afraid of their lives and the 
safety of their customers. We need to do better.
    Mr. Fitzgerald, have you come into any interactions with 
community navigators that we included as part of the PPP and 
EIDL and if so, has that played any role in providing 
information to the businesses?
    Mr. FITZGERALD. Absolutely. That was why a number of years 
ago we expanded our network of service centers to include the 
International Rescue Committee, which is a refugee resettlement 
agency, which is very heavily embedded in communities in San 
Diego, the Asian Business Association of San Diego, and of 
course at Southwestern College, we are an Hispanic-serving 
institution and worked heavily in those communities. That is 
why language services and being very intentional with who is 
our staff and working that really they are able to be able to 
work within the community, be part of the community, and to be 
able to provide those services.
    Chairwoman VELAZQUEZ. Thank you. My time has now expired.
    The Ranking Member, Mr. Luetkemeyer, is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    I would like to start with Mr. Ponce. You know, Mr. Kallick 
made the comment a minute ago that policy will matter as we 
rebuild the economy here. And I think along that line, 
President Biden has pledged to repeal the Trump 
administration's pro-business Tax Cuts and Jobs Act. The 
administration lowered taxes and reduced regulatory environment 
I believe generated a small business economy that was filled 
with optimism and confidence. Small business owners were 
investing in their employees, their companies, and their 
communities. As a result, the Nation saw historic levels of 
unemployment and job creation.
    As a small business owner, can you give me your thoughts on 
the Biden tax plan?
    Mr. PONCE. Yes, thank you, Representative Luetkemeyer.
    You know, it is my understanding that there is going to be 
substantial cuts coming down the line and the increase in 
taxes. You know, I can speak freely of my current economic view 
here locally in our local market. The reality is what we had 
before within the Trump administration, it allowed us to really 
excel and grow in our diverse market being that we are in the 
Midwest. But right now as we stand I feel that we need to 
really reimplement or rethink through that process of allowing 
small business owners the opportunities and the capabilities to 
grow and succeed with the financial opportunities that are out 
there that everyone else is able to obtain. Thank you.
    Mr. LUETKEMEYER. To allow you to keep your own dollars with 
tax cuts and be able to invest those as you saw fit, either in, 
you know, buying another business or expanding your business, 
more inventory, hiring more people, that allowed you to grow 
your business as you saw fit and improve the entire community 
with you investing in and growing your business I would say. Is 
that a fair statement?
    Mr. PONCE. That is a very fair statement. It gives me the 
flexibility and it would give us really the flexibility to grow 
and continue to grow to the market share that we want to 
tackle.
    Mr. LUETKEMEYER. So if those taxes are raised and you wind 
up with increased regulation, it is going to suck money out of 
your operating capital, out of your operating money to be able 
to do those things and it is going to restrict your ability to 
grow I would assume. Is that correct?
    Mr. PONCE. It would definitely limit our growth. That is 
correct, Representative Luetkemeyer.
    Mr. LUETKEMEYER. Something else that sort of really piqued 
my interest here is I serve on the Financial Services Committee 
as well. I am the Ranking Member on Financial Institutions, 
which oversees the banks and credit unions and those folks. And 
so when you talked about the inability of big banks to really 
address the immigrants' basic needs for capital, that really 
struck a chord with me because I am concerned the numbers will 
bear out, you made the point about community banks. You know, 
your local bank that is independently owned and run and 
basically they invest in the community. And as a community 
grows, they grow, versus the big bank which has a completely 
different business model. The numbers bear out that the smaller 
banks actually make more, significantly more business models 
out of their deposit base than big banks do. So it did not 
surprise me when you made that comment, especially when it 
comes to beginning, you know, startup businesses, the capital. 
The big banks will be glad to take the business once it is off 
and running but it is a little difficult to get that startup 
capital.
    So I guess my question to you is, we have got some concerns 
with the small business program because of some reports that we 
are getting from the IG and the Government Accountability 
Office of some problems there with regards to our ability to 
provide oversight. And I am considering looking at having the 
banks do more of that.
    So in your experience with the banks with regard, even to 
SBA programs, were the small community banks able to deliver on 
those dollars, on those programs in a way that it was giving 
you the information you needed and be able to give you the 
dollars that you needed to be able to get through your startup 
and getting going through the PPP program, things like that?
    Mr. PONCE. Yes, Representative Luetkemeyer. The 
opportunities were given to me by the smaller, local banking 
institution that actually understood and really read through my 
experience and my vision of what I wanted to do with our 
company. They were not 100 percent onboard completely with 
funding. I had to, again, for example, in the acquisition of 
this firm in 2016, you know, they gave me some but not all. 
They wanted me to step up to the plate and put my own skin in 
the game and it just turned out that I had to put a substantial 
amount more skin in the game than the bank was willing to savor 
on my end. But they were definitely much more receptive versus 
the bigger branch banking institutions out there. They really 
looked at me as an individual, who I am and what I envisioned 
of our operation but the bigger banks did not give me the time 
nor the availability to sit down and understand exactly what I 
wanted to do with our organization.
    Mr. LUETKEMEYER. Thank you for that. My time is about up.
    Mr. Fitzgerald, in a world where you saw SBA as a guarantor 
of loans and grants versus the direct lending or direct 
grantee, how would you see the SBDC's role in that? Is that 
something you could see expand and be an initiator of those 
loans, for instance, or those grants, for instance?
    Mr. FITZGERALD. What we do is mainly help people navigate 
the lending process, complete their applications, complete 
their business plans so that way it is a much easier process 
for the lender to be able to underwrite and help them 
understand what that particular process is.
    Mr. LUETKEMEYER. Could you see it expand a role for you 
though in that regard?
    Mr. FITZGERALD. Always, because that is really what we 
focus on is access to capital in a lot of ways.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    Chairwoman VELAZQUEZ. Now we recognize the gentleman from 
Colorado, Mr. Crow, for 5 minutes.
    Mr. CROW. Thank you, Madam Chair. And thank you to all the 
witnesses. This is an extremely important hearing for me in 
particular. I represent the most diverse district in the state 
of Colorado, one of the most divers in the Nation where we are 
home to many immigrants and refugees. I have over 160 languages 
spoken in my district and about 20 percent of my constituents 
were actually born outside of the United States. And the 
comment earlier by several of you that are immigrants and 
refugees, entrepreneurs, resonates very strongly with me 
because I see so many of those folks come here and they start 
businesses--restaurants, bakeries. You know, the mom and pop 
shops on the corner are oftentimes run by immigrants and 
refuges and it really is kind of like the lifeblood of our 
economy but actually makes our community a lot more stronger 
and vibrant and a great place to live. So it is an extremely 
important topic for me.
    One issue that I would love you all to touch on, and this 
goes back to the access to capital which, of course, is a 
common thread throughout much of this. But, you know, I have 
folks who had been business owners for decades back where they 
lived before they came to the United States, and then when they 
immigrated here or sought refugee status here, they are 
starting from scratch because their credit histories, their 
credit ratings do not translate back from where they ran 
businesses to where they are now. So they are starting from 
scratch and it is really a tough thing for them to grow that.
    Can you touch on, you know, how can we address that issue? 
How can we be creative and innovative and give some folks some 
credit for sometimes decades of business ownership so they are 
not starting from ground zero again?
    Maybe start with Mr. Kallick and then go to Mr. Daniel 
Fitzgerald.
    Mr. KALLICK. Sure. Thanks for raising that.
    So the report that I was referring to before is the report 
we did about immigrant Main Street businesses. And one of the 
questions we looked at was exactly that issue of what makes for 
better lending practices.
    One of the things that I thought was striking and surprised 
me in some ways as we did the research was the issue seemed to 
me not so much about widening the doors, sort of letting the 
people qualify more, but it was more about, so in other words, 
like not providing different terms but it was more about how do 
you make sure that the lenders can have the time to really 
evaluate the potential business, you know, borrowers? And so I 
think, you know, the more that you can do to support community 
developing finance institutions, community development 
corporations, sort of people who can have individual 
relationships with business owners and, you know, figure out 
who is a good credit risk. It is not doing anybody a favor if 
you lend people money and they cannot pay it back. Right? That 
gets them in trouble but it also gets the bank or the lender in 
trouble. So you really do want to say how do you evaluate 
somebody's credit worthiness? But I think what you are pointing 
out is that immigrants and refugees in particular, you know, 
the usual ways that we do that may not fit very well. So just 
being able to look at somebody's credit history is not a very 
good indicator of that. So I would say invest the time really 
of the loan officers. And, I mean, I guess if I could say one 
more thing about that I would say how do you make sure that you 
are really connecting people with the kinds of business 
services that help them to grow as they are doing the 
borrowing?
    Mr. CROW. Thank you.
    Mr. Fitzgerald, a short answer, because I would like to get 
Ms. Chen's view on that as well.
    Mr. FITZGERALD. Absolutely. I just want to echo what Mr. 
Kallick was speaking about and the need for microlenders and 
very small business lenders. The continuation of the SBA 
Microlending program is critical. But also looking at early 
loans that are based on social credit which are kind of credit-
building loans which are very, very small are critical as well.
    Mr. CROW. Thank you.
    Ms. Chen, any thoughts on this?
    Ms. CHEN. Yes. Because we were underfunded from the PPP, we 
actually relied heavily on community support and had 
opportunities to apply through a local nonprofit for a KIVA 
Microfinance Loan, actually. That was pretty recently. And so I 
think utilizing microfinancing can actually be very critical 
for small businesses like ourselves, especially programs like 
KIVA where there is 0 percent interest and it does not rely on 
your credit to be able to access. Instead, it is focusing more 
on social credit trustworthiness.
    Mr. CROW. Thank you. I appreciate very much that view and 
for everyone's hard work.
    I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Now we recognize the Vice Ranking Member Mr. Williams from 
Texas for 5 minutes.
    Mr. WILLIAMS. Thank you, Madam Chair. And thank you to the 
witnesses. And thank you to our ranking Chairman for this.
    As the owner of auto dealerships in Texas and a small 
business owner, I know firsthand how devastating President 
Biden's corporate tax increase would be on Main Street America. 
You know, raising taxes will only cause businesses to invest 
less in operations, to hire few employees. They will cut 
employees so they can save money to pay the increase in taxes. 
And I know when we cut taxes under the Trump administration it 
caused the labor market to tighten which was a good thing. We 
had to compete to attract workers which led to higher wages for 
all employees.
    So I know this story is not unique to just the car 
business. The bottom line is all small businesses, regardless 
of ethnicity, will be affected with any increase in the 
corporate tax rate. It is a disaster when you raise taxes.
    So Mr. Ponce, as someone in the real estate market, can you 
explain--you have done a good job so far--of how President 
Biden's tax increase would affect your business and doing away 
with things like the like-kind exchange, treating capital gains 
as ordinary income, inflation, all that is going to be affected 
with you. How is it going to affect your business?
    Mr. PONCE. Thank you, Representative Williams.
    I believe as stated earlier with Representative 
Luetkemeyer, if the tax increase does assess itself, I feel 
that it will make it very difficult for us to sustain our 
business due to the fact that we would have to use literally 
our own financial resources and not have the opportunity to 
really bridge the assistance of bigger banks or anything of 
that nature to assist us and continue to grow. But here in our 
local market there are too may weighing factors in my honest 
opinion of how it is going to affect us. And the major one is 
the growth. It is allowing us to continue to grow as a company. 
And not only just in the real estate market but I would assert 
to say, an strongly assert to say that in any type of business 
entity, if they increase taxes it will definitely hinder our 
potential for growth and our opportunity to really generate 
potential future revenue for our industry.
    Mr. WILLIAMS. Thank you.
    So what is good for small business is good for America. I 
believe that. Most of us do.
    We need to stop focusing on what increased government 
spending can do for Main Street America and shift our efforts 
to building an economy that incentivizes entrepreneurship and 
grows what I call the real economy, small business owners and 
not the government's economy.
    So Mr. Fitzgerald, you mentioned the Small Business 
Development Centers offer assistance to people who are looking 
to start or expand their business. With COVID-19 bringing many 
unique challenges for businesses to confront moving forward, I 
want to ensure that we are using these resources as effectively 
as possible. So can you briefly talk about some of the ways the 
SBDCs should be changing the way they assist small businesses 
as we are regaining normalcy back in Texas. We are back to 
normal in Texas and we should get America that way.
    Mr. FITZGERALD. So right now we are still, of course, 
continuing to focus on the relief programs. The last month of 
PPP is coming up but we are already beginning to see a strong 
increase in entrepreneurship and business starts. So we are 
ramping up again our programs on how to start a business, how 
we can go to those programs, including newly expanding a lot on 
childcare businesses, as well as foodservice businesses. In 
addition, we have really continued to grow our services around 
the innovation economy here in San Diego. We have a very strong 
life science sector and that has continued to expand at which a 
number of immigrants certainly work in that sector as well. And 
so basically getting back to the core services that we were 
providing pre-pandemic is what we need to do very, very soon as 
the relief programs begin to expire.
    Mr. WILLIAMS. Okay. So when the pandemic began, large 
stores were able to remain open while mom and pop shops were 
forced to shut their doors. I was very opposed to these orders 
since the government should never pick winners and losers and 
be deciding what businesses are essential and ones that are not 
and the ones that can operate. Small franchise businesses of 
which I am that and the mom and pop stores are the strength of 
this country and of Main Street.
    So Mr. Kallick, in your testimony you talked about some of 
the long-term effects of the COVID lockdowns if we do not 
revitalize Main Street America.
    Can you go into a little more detail for the people 
listening today on the long-term effects of COVID-19, how it 
could shift the competitive landscape of the economy?
    Mr. KALLICK. Sure. Thanks for the question. I think my 
concern is that big businesses and some of the online 
businesses may squeeze out the more locally oriented business. 
I would say that it strikes me as unlikely. We do not know what 
the tax proposals are in any detail but it is unlikely that the 
small businesses we are talking about here are going to see 
really significant impacts from those. They are aimed largely 
at wealthy people and corporations that are making big profits. 
And I think what is really important is creating a climate of 
confidence in downtown growth. I think people need to be able 
to feel like they are, first of all, safe. They can trust the 
government to tell them when it is okay and when they can 
really go safely without feeling that there is a health risk. 
And I think they have to feel like there is money in the 
economy to be able to support the reopening and risking of 
small businesses.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Now we recognize the gentleman from Minnesota, Mr. Phillips 
for 5 minutes.
    Mr. PHILLIPS. Thank you, Madam Chair. And thank you to 
today's witnesses. I am quite encouraged that our Committee is 
having this conversation today because most of us have 
foremothers and forefathers who came to America, bringing the 
very same ambitions and seeking the very same opportunities and 
possibilities that today's immigrants seek for themselves and 
their families. And I am one of those people. My great, great 
grandparents came to the United States in the late 19th 
century, built successful businesses, and perhaps most 
importantly, shared that success, and we continue to share that 
success with the very communities that made it possible.
    As you all know, some of America's most innovative and 
impactful enterprises were founded by immigrants. Even today, 
Moderna, one of the companies leading the way in the COVID-19 
vaccine was founded by an immigrant. eBay introduced the entire 
world to ecommerce founded by immigrants. Tesla and SpaceX, 
writing history in the energy and automobile and space sectors, 
founded by an immigrant. The story of how these companies rose 
to their position is really a uniquely American story and there 
are stories of the United States welcoming talent. I stress 
welcoming talent from all over the world. And that is why I am 
a significant advocate and supporter of proposals throughout 
Congress to afford more visas to foreign-born entrepreneurs who 
wish to develop their companies in the U.S., provide jobs to 
Americans, and improve communities.
    To my colleagues who are arguing for lower taxes, we all 
want lower taxes. We also need better roads and bridges and 
airports and electrical grid. We need a trained workforce. We 
need healthcare for human beings so they can be productive 
employees. And I ask all of us to unify behind the investments 
we need to make and ways to pay for them.
    Mr. Kallick, I will start with you. In your research 
relative to immigration, what impact have you found that 
immigrant entrepreneurs have had on job growth and creation in 
the United States?
    Mr. KALLICK. Well, so certainly as you point out, I mean, 
very significant in the overall economy. I think one 
particularly interesting thing from our research was the sort 
of bread and butter of economic growth which is that Main 
Street small business growth and the way in which immigrants 
have often found kind of niches that are unexplored or 
undeveloped within the economy.
    I think something that was particularly surprising in our 
research was how important that was in some cities that had 
seen overall economic decline--Detroit, Pittsburgh, Baltimore, 
Cincinnati--where immigrants were filling in those niches and 
helping the local neighborhoods to grow. And I think that is in 
some ways the story of some of the bigger metro areas as well 
but I would say it is more striking in some ways and maybe more 
surprising in some of those smaller metro areas.
    Mr. PHILLIPS. I should ask if there are risks to the U.S. 
economy that we should be concerned about if Congress and the 
White House do not take steps to increase the number of legal 
immigrants in the United States.
    Mr. Kallick or any of our other witnesses, I would welcome 
your perspective on that question. Anybody? All right.
    Mr. KALLICK. I am happy to say something. I am happy to say 
something on it. I do not want to be the only one talking but I 
mean, I think, sure. I mean, look, I do not think that endless 
population growth is necessarily always and in every case a 
good thing. But I think having population decline is a real 
danger to the economy where we have in lots of cities, and we 
have seen this. We have got a substantial amount of built 
infrastructure that is going underutilized and if we do not 
have people who can revitalize that and bring that back into 
productive use I think you see a real loss to the overall 
economy. And a number of the metro areas, a number of the 
cities are just at that tipping point.
    Within New York State--Buffalo, Syracuse, Rochester, 
Albany--every time the census comes out people are looking to 
see, you know, is there a population decline or a little bit of 
finally population increase. And without immigration I think we 
are not going to see that population increase. And similarly, 
not the revitalization of these cities.
    Mr. PHILLIPS. I can tell you in my business career there 
are two ways to grow enteprises--either find new consumers at 
home and/or new opportunities to market products abroad. Many 
of you are familiar with <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8d84999c8a998fc59e98ab9c8fc59e98c5">[email&#160;protected]</a> They published a 
report recently in collaboration with George Mason University, 
that found that the U.S. risks losing its status as the world's 
largest economy by 2030 if policymakers do not take steps to 
expand legal immigration. That report, which I would like to 
enter into the record, Madam Chair, found that current 
population trends and immigration levels will lead to the U.S. 
economy being only three-quarters of the size of China by 2050.
    Chairwoman VELAZQUEZ. Without objection.
    Mr. PHILLIPS. I am sorry?
    Chairwoman VELAZQUEZ. Without objection.
    Mr. PHILLIPS. Thank you.
    And that influx of legal immigrants would help keep 
entitlement programs, like Social Security and Medicare from 
going insolvent, something that we surely could all agree on.
    I do see my time is expiring, Madam Chair. I yield back and 
thank you again to our witnesses for being with us today.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from Minnesota, Mr. 
Hagedorn.
    Mr. HAGEDORN. Thank you, Madam Chair. I appreciate the 
opportunity, and thanks for holding this hearing.
    I guess at the start I would say we have to always remember 
the United States is the most generous country in the world 
when it comes to legal immigration. We bring in over a million 
people a year and I think many of us would like to see that 
including merit-based immigration so we can have more people 
that want to come here and fulfill the American dream and 
continue this entrepreneurial spirit which flourishes in our 
system of free enterprise. And I think at any point in our 
history we look back and whether it is the Germans or the 
Italians immigrating or people fleeing Communism in Cuba or 
folks coming here for economic opportunity, whatever, folks 
have been able to flourish in this system and we have to 
maintain our system, rather than go towards socialism.
    I see some of this up front. My wife, Jennifer, was born in 
Korea. She was adopted by two great people in Minnesota at a 
very young age and brought to our country. Now one of the ways 
that she has fulfilled the American dream is she is a retail 
small business owner. Her business is up in Congressman 
Stauber's district. Congressman Stauber, of course, a member of 
our Committee. And I think whether you are somebody that came 
to America and started a business or you are somebody who has 
been here many, many generations, we are all in the same boat. 
And what we need to do is to make sure that we have a system 
with good government that is going to allow people to have the 
best opportunity possible in order to take their dreams and 
ideas and turn them into something and keep growing. And that 
means, you know, if you look back the last 4 years, we had that 
in our economy and it was a good economy for small businesses 
of any sort. We had tax reform, which was very successful. Less 
regulations, and a lot of business owners will tell you that is 
very important, particularly in the banking industry where you 
are talking about where community bankers were wiped out 
because of bad regulations coming out of Dodd-Frank.
    And then you look at things like low-cost energy. Many 
businesses thrive because they can keep their costs downward 
and then trade deals like USMCA and others.
    But then you kind of look at the other side of the coin, 
bad government policies and how tough it can be on business. In 
the state of Minnesota, I would like to associate myself with 
Congressman Williams's statements about the lockdowns. In 
Minnesota, we had lockdowns here where our governor used 
emergency powers to basically pick winners and losers and 
decide that the retail small business owners had to shut down 
and the restaurants and everybody else but the big box stores 
and the online only stores, they were wide open. And they were 
getting all that business. On top of that in Minnesota, we had 
businesses across the border at places like South Dakota, Iowa, 
and Wisconsin, they were open. Our businesses were shut down. 
Our people were hurt. They are still struggling with that to 
this day and probably will into the years to come. That was not 
good.
    Another bad government policy, and this one comes from 
Congress, this one comes from the national group. What is going 
on with unemployment compensation and the way we were throwing 
out benefits and money to people during this COVID has made it 
so people literally do better staying at home. They make more 
money than if they go to work. And if you talk to any business 
owner across this country for the most part, big, small, or 
otherwise, they are having a really tough time finding people 
to work. And a lot of that is because of bad policies put 
together by the Congress, by the president, and we have got to 
stop that. We have to get back to where we have people getting 
incentives to go back to work, get into the private sector, do 
their jobs. Because we are going to have business literally 
losing market share or going out of business because they just 
cannot find a workforce, skilled or otherwise. So I am part of 
those solutions in Congress. I hope we can all join together 
and move that forward.
    So Mr. Ponce, you are a small business owner. You have seen 
some of this. I will just let you kind of respond to what I 
have been saying.
    Mr. PONCE. Thank you, Representative Hagedorn. You are 100 
percent correct. As stated earlier by Representative 
Luetkemeyer, in my bio, I also own a fitness facility in the 
Clayton area here in the St. Louis market. And government, that 
may be that it is currently seen in our area, did just that. 
They unfortunately put us in a position where small businesses 
were almost put out of extinction because of the way they 
decided on who stays open and who does not. But the reality is 
there has got to be some equal share or responsibility on all 
sides, you know, from local government to national government. 
And in my opinion, here on a local level there are many 
obstacles that we still have to overcome.
    To your point, Representative Hagedorn, in regards to the 
unemployment and the people that are currently rather wanting 
to stay home versus going back to their normal jobs, that now 
that the opportunity is there they decide to stay home because 
they make more money doing that instead of having to go to 
work, there has got to be some clarification and there has got 
to be some type of balance. You know, this government was built 
on immigrants as everyone here on this panel and this Committee 
is well aware of. And I am very thankful to say that I am one 
of those that is trying to build my American dream here, but we 
definitely need the support of local government to allow us to 
continue to grow and not put us in positions where we have to 
be challenged day to day on how to grow. Thank you.
    Mr. HAGEDORN. Thank you. I appreciate your time.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Now we recognize the gentlelady from Illinois, Ms. Newman, 
for 5 minutes.
    Ms. NEWMAN. Well, thank you very much. Good afternoon, 
everybody. So pleased to be here. Thank you, Chairwoman, and 
thank you, Ranking Member Luetkemeyer.
    So a couple of things for the record, and I think it is 
important to say that I think we all have had Econ 101 and many 
other econ classes so that we know that our economy only grows 
when we have more people being productive. So limiting the 
number of people in this country is really a bad idea because 
we will not be as productive. Our GDP will never grow. So that 
is one.
    Two is that I just want to be clear for the record in 
writing that we did not pick losers and winners. What we did do 
was provide science and we provided great outline as to how 
people can stay safe as they keep their businesses open. And so 
they can make choices for themselves, their staff, and their 
customers. So pleased that our government did that and 
continues to do that. And I am so pleased small business is 
coming back.
    As a former small business owner and someone that has a 
strong advisory council in my district that I meet with once a 
month, I hear about their challenges. And I am incredibly 
concerned.
    So a few things. I do understand that President Biden's 
plan does not include small businesses all the way down with 
the 21 to 28 percent or whatever it might be. That most of the 
businesses that we are talking about here would not be affected 
by the tax increase. So let's get that out there. We will learn 
more as the weeks go on.
    I also want to ask Mr. Ponce and Ms. Chen a couple of 
direct questions about their businesses because I have asked 
this of hundreds of small businesses in my district and I keep 
on getting two answers. So I will tell you what the answers are 
but tell me if you are hearing something differently.
    So the first question for both of you is, are you both 
having trouble with hiring folks? Meaning finding folks to work 
in your businesses.
    And I will go to Ms. Chen first.
    Ms. CHEN. So thank you for that question. Specifically for 
us, we are not having trouble hiring. In fact, we have had a 
lot of individuals eager to work and even get off of 
unemployment, desiring to go back into the workforce and are 
eager to serve. And I specifically am in the food and beverage 
industry in particular. And I think part of why a lot of folks 
have wanted to work for us is because we have ensured that our 
company is going to be transparent about safety and even 
continued requiring our customers, along with our staff to wear 
masks despite the state of Texas mandates that have lifted 
those.
    Ms. NEWMAN. Right. Good. Well, I am so pleased to hear 
that. And it is funny. When I do hear that there are workforce 
problems, it is usually attached to childcare. So I think we 
are hearing consistent things, is that people are dying to come 
back if they do not have childcare concerns, but when they have 
childcare concerns they are having trouble getting back to work 
because there is no where to put their children right now so 
that they can work. So thank you for your answer.
    And then Mr. Ponce, I will ask you the same thing. Are you 
having labor workforce recruitment issues or are you not?
    Mr. PONCE. Thank you for that question, Representative 
Newman.
    As stated earlier, within my industry, we are a little bit 
of a unique industry. We are, obviously, in the real estate 
industry, so we are not having that issue at the very moment, 
but I am involved in other businesses that my fellow colleague 
and entrepreneurs are having issues finding and hiring people 
due to the fact of the local government's issuance on how they 
are wanting to return back to work but do not choose to because 
of the unemployment benefits that they are receiving.
    Ms. NEWMAN. Okay. So you have not heard from any of them 
that potentially it was childcare related.
    And then I have one more question for you.
    Mr. PONCE. Yes. This is mainly related to the restaurant 
industry and the fitness industry that I am also well aware of 
in our local market.
    Ms. NEWMAN. Okay, I am sorry. So are you saying that the 
employees that are not coming back, it is not due to the fact 
that they do not have the ability to have their children cared 
for while they are at work?
    Mr. PONCE. No, ma' am. That is correct.
    Ms. NEWMAN. Okay. Thank you for that answer.
    And then my last question has to do with livable wage. Do 
you think that it is interesting that you have just identified 
that, in fact, people are not coming back because they are 
getting paid more potentially by their current subsidies. Do 
you think that is interesting in light of the fact that they 
are looking at going back to a low wage that they cannot live 
on or they are temporarily getting a lift and taking advantage 
of that until they can go back?
    Mr. PONCE. I can confidently say, Representative Newman, 
that within our local market, our local district, there is a 
lot of individuals that are taking advantage of the benefits 
right now, the subsidies that are given to them that gives them 
the option to decide not to want to be gainfully employed but 
much rather want to be under the unemployment benefits plan 
because the minimum wage probably does not fare out to equate 
to what they are getting now. There are plenty of businesses 
here, local businesses that have signs on their windows looking 
for, in desperateness looking for individuals, even calling 
back previous employee that unfortunately were had to let go 
due to the fact that when the quarantine and the city getting 
involved in closing small businesses, it made a huge impact to 
these individuals that decided to take it. So.
    Chairwoman VELAZQUEZ. Time has expired.
    Mr. PONCE. Thank you.
    Chairwoman VELAZQUEZ. The gentlelady from California, Ms. 
Kim, is recognized for 5 minutes.
    You need to unmute, Ms. Kim. We cannot hear you.
    We will go to Mr. Stauber and then go back to Ms. Kim.
    The gentleman.
    Mr. STAUBER. One second, Madam Chair. I am trying to get my 
speaker up here.
    Thank you, Madam Chair.
    You know, first off, thanks for the witnesses being here. 
And my questions are for Mr. Ponce. First, I want to 
acknowledge that in your testimony you highlighted that lending 
was a huge barrier to entry. Are there other hurdles such as 
minimum wage increase or new taxes that worry entrepreneurs, as 
they try to overcome the effects of this pandemic?
    Mr. PONCE. Thank you, Representative Stauber.
    I feel strongly that the challenges are banking and lending 
for us. And also in the imminent future, the tax increase will 
definitely be a major catastrophe on our end to continue to 
succeed in our growth and our industry. Yes.
    Mr. STAUBER. And then also in your testimony you highlight 
the importance of educating our communities of the assistance 
the government provides for entrepreneurs through the SBA. And 
can you speak more specifically about your experience starting 
your business, and did you know of SBA assistance or work with 
the SBA resource partners such as the SBDCs?
    Mr. PONCE. Thank you for that question, Representative 
Stauber. It was in my past experience and I was unaware of 
these opportunities that the local governments and national 
governments were offering. I was aware of the SBA initiatives 
and the programs that they had to offer but I did not have the 
direction nor the know how to be able to get pointed in that 
direction. And I speak highly within our local market and that 
is where I can really specialize my questions, or my answers, 
rather. But in essence, to be very direct here, we lack 
education within our community and the involvement of these 
organizations for our communities. And that is where I feel 
strongly that once we are aware of what opportunities are out 
there for our businesses and our fellow entrepreneurs in the 
Latino community, I can feel certain, being that I sit on the 
board of the Hispanic Chamber of Commerce here locally in St. 
Louis, I see this each and every day. And we try to guide now 
more so now because of our past experience and our past 
leadership that had to deal with the most difficult route 
possible to gain a business of their own, now as we keep moving 
forward there is obviously more opportunities out there that 
the government allows us to research and know and advise to. 
Now it is just bringing those people from our community to 
those organizations. That is our challenge. Thank you.
    Mr. STAUBER. So, Mr. Ponce, give us some advice on how we 
might better educate our communities on the opportunities 
available to them from your experience.
    Mr. PONCE. Thank you. That is a very good question. I would 
say please look at us as individuals and not as a number. And 
that is truly factual even in our industry, if we can just 
please be looked at as individuals and our credibility and our 
experience and that endeavored business that will go a long 
way. And not look at us as an actual number as such as these 
big bank branches do and instead of putting in check marks they 
are just crossing the lines and making sure they hit all 
avenues.
    It has been my experience that a lot of banking 
institutions here on a local level look at a deal as how can we 
not get it approved versus how can we get you to the approval, 
you know, stamp. You know, maybe we cannot get approved at this 
very moment but let's show you what you need to do to get 
approved and that is the educational component that we lack. 
And that is the educational component that we push within the 
local organizations that I am involved in such as the Hispanic 
Chamber of Commerce of St. Louis. Thank you.
    Mr. STAUBER. Mr. Ponce, what I heard you say is personalize 
the assistance and get to a yes because it is easy to say no in 
government. Would that be correct?
    Mr. PONCE. That is 100 percent correct, Representative 
Stauber.
    Mr. STAUBER. Thank you, Mr. Ponce, for your testimony.
    And Madam Chair, I yield back. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentlelady from Georgia, Ms. 
Bourdeaux.
    Ms. BOURDEAUX. Thank you, Madam Chairwoman. And thanks to 
all the witnesses here today. Hopefully, you can hear me okay. 
I see my Internet connection may not be great.
    I represent one of the most diverse districts in the 
country with immigrants from all over the world that help drive 
our economy in Gwinnett and Forsyth counties. About a quarter 
of my constituents were born outside of the United States. Many 
of these, of course, as you all have noted, are entrepreneurs 
and operate lots of wonderful mom and pop shops all over this 
district. And so our challenge is to figure out how to, of 
course, get them through the COVID crisis and then get them off 
to a strong start on the other side of this.
    So just starting at the top with a question for Mr. 
Kallick. You mentioned in your testimony concerns about the 
disproportionate impact of COVID-19 on immigrant communities, 
the importance of correcting that imbalance using small 
business relationships with big banks versus CDFIs as an 
example.
    In your view, how can Congress ensure that our immigrant-
owned businesses, which are these really wonderful but often 
small and do not have those regular banking relationships, how 
do we help them recover and build back better after the 
pandemic?
    Mr. KALLICK. You know, I wish I had a more fully blown 
answer for you. I think there are 1,000 steps along the way and 
as you consider each one I would say it would be really 
important to think about how is that going to affect the 
immigrant businesses, the businesses owned by people of color 
who have been so sometimes deliberately I think, sometimes not 
deliberately but so excluded from other forms of aid. So I am 
not sure how to, you know, I would be glad to come back another 
day and come with a series of proposals. I do not really have 
one ready but I think it can be part of the thinking every step 
of the way.
    Ms. BOURDEAUX. I have heard about the microlending 
programs, things like that, and we are working with our Small 
Business Development Center also to try to really improve and 
build on the outreach to our immigrant businesses. Recently, I 
had an event with over 60 restaurants from Georgia 7 who we saw 
last week with Isabel Guzman, the Small Business Administrator. 
And many of those who showed up to this event were immigrant-
owned restaurants and they were beginning to apply for and 
receive assistance through the Restaurant Revitalization Fund. 
However, we know that there are many other businesses that have 
not been able to access any assistance over the past year. And 
so we are now looking forward to the launch of the Community 
Navigator pilot program on April 30. And it is my hope that 
this program will enable more immigrant-owned businesses to get 
the information and resources that they need to help them 
recover and prosper in the years to come.
    That being said, you know, we are trying to figure out, you 
know, what does this Community Navigator need to do? How are we 
going to target that towards our small businesses in order to 
help them be successful? And one of my colleagues at George 
State University did a study and talked about how a lot of 
resources were really just oriented towards providing in-
language services to folks.
    And I was wondering, this is a question for Ms. Jaja Chen, 
what would be some of the things that would really help people 
in the Taiwanese or Chinese business community? You know, what 
could the Small Business Administration do to help them get to 
the other side of this crisis? We want them to provide services 
in language. You know, have some of that kind of research. But 
are there other things they could be doing that would help a 
business like yours or your colleagues and peers in the 
community?
    Ms. CHEN. Well, I think it is huge to really focus in on 
building relationships with the grassroots organizations and 
community organizations like mutual aid groups that are already 
serving immigrant-owned populations. And so rather than 
revamping, creating brand new programs, really starting to 
recognize, like there are so many nonprofits and organizations 
already serving the immigrant-owned population or immigrant-
owned business population. So it is important to really have 
the linkages. Right? The collaboration between the 
organizations and part of that is having the time, having 
people to be able to build those linkages, build those 
relationships, and to be able to ensure that there is that 
cultural competency that has held out throughout that time in 
the relationship because it comes down to someone having the 
relationship with someone to know, oh, I can actually qualify 
for programs within the SBA. I think many Chinese and Taiwanese 
business owners might not even realize that they have the 
ability to apply for programs like the PPP or Restaurant 
Revitalization Fund.
    Ms. BOURDEAUX. I will just state we have this challenge, 
and I will have to wrap up, between we have people with the 
cultural knowledge and people with the small business 
knowledge. We have got to find a way to bring those two groups 
together.
    But thank you very much, Madam Chairwoman. I yield back the 
balance of my time.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentlelady from California, Ms. Kim.
    You need to unmute. We cannot hear you.
    Ms. YOUNG KIM. I am joining by audio.
    Chairwoman VELAZQUEZ. We can hear you now.
    Ms. YOUNG KIM. Sorry about the technical difficulty here.
    So I wanted to thank the witnesses that are joining us 
today and thank the Chair and the Ranking Member for holding 
this hearing.
    You know, I am an immigrant myself and also a former small 
business owner so the witnesses' testimonies really resonate 
with me. And as my family and I also strive to live the 
American dream, I fully understand the importance of immigrant-
owned businesses in our community and the contributions they 
make.
    According to a study from 2019, about 3.2 million 
immigrants run their own small businesses making it one in 
every five entrepreneurs in this country. And immigrant-owned 
businesses, they employed almost 8 million across America. And 
I have the honor of representing California's 39th District, 
which is one of the most diverse districts in California and 
also home to many small businesses owned by immigrants. 
Overall, here in California over 40 percent of businesses are 
started by immigrant entrepreneurs.
    But unfortunately, many entrepreneurs in my district have 
been negatively impacted due to one of the most onerous stay-
at-home restrictions in the country imposed by Sacramento.
    You know, Mr. Ponce and Mr. Chen, just like as you, you are 
policymakers and legislators, I, too, have taken the time to 
speak to many small businesses in my district. And one common 
theme I hear is that they are unable to hire qualified workers. 
And I am sure based on your experience investing and owning 
businesses, you also see the same problem in your business and 
with your communities.
    So I want to ask you, Mr. Ponce, do you have any 
recommendations that could make it easier for businesses to 
find and hire workers?
    Mr. PONCE. Representative Young Kim, thank you so much for 
your question.
    Yes. You know, we have, I would say within the Latino 
community, we do have a luxury where we are really utilizing 
our chamber, our business chamber here locally to vet out and 
find and market to potential future business entrepreneurs to 
even help gain employment to start and understanding perhaps 
the business that an individual would like to be involved in. 
Here my advice to be more direct to your question is continue 
to help these organizations and these foundations that allow 
and assist in gaining knowledge and education to and getting it 
out there I should say to the future employers and future 
business owners in our minority communities. I hope I did it 
justice to answer your question. I apologize. Thank you.
    Ms. YOUNG KIM. Well, thank you, Mr. Ponce.
    In response to Mr. Williams's question earlier, you already 
stated that it would not be prudent for our government to 
increase taxes as it will quell business confidence in the 
American economy at this point. So as a follow up to that and 
as our economy looks to recover from the pandemic, what type of 
policies would instill business confidence and incentivize new 
businesses to open?
    Mr. PONCE. Yes, thank you. To be more direct to your 
question I completely 100 percent stand behind the fact that we 
cannot increase access. That is a major component to our issue. 
It will not allow us to grow in the manner that we need to 
grow.
    Furthermore, we need local government authorities and local 
legislature to really back the business and the local economy 
of business to allow us to continue to grow. But adding more, 
you know, more detriment to increase of taxes or limiting an 
opportunity to open our doors during the reopening of the 
pandemic, that all has to be looked at and really sought out 
with a fine-tooth comb. Thank you.
    Ms. YOUNG KIM. Sure.
    In the interest of time, let me ask a quick question to Mr. 
Kallick and hope you have time to respond.
    In several of the relief packages Congress passed over the 
last year, the Committee ensured that the smallest of the small 
business and those that rely on lending institutions like 
community development financial institutions or CDFIs and small 
and independent lenders have access to PPP and EIDL programs. 
So to what do you attribute those businesses not being able to 
access the programs given the specific carveouts that were 
already provided?
    Mr. KALLICK. I think they were starting so far behind in 
doing that that there was a real problem in catching up. I 
think that is the extent of my understanding of it.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    Now we recognize the gentlelady from California, Ms. Chu, 
for 5 minutes.
    Ms. CHU. Ms. Chen, I appreciate you sharing your experience 
of discrimination and talking about the fears prevalent in the 
Asian American community during this year of rising anti-Asian 
hate crimes across our country. I have been active in leading 
the effort to fight anti-Asian hate crimes which increased with 
Trump's usage of the terms China virus, Wuhan virus, and Kung 
flu.
    Last month, I led a delegation to Georgia to visit the 
three Asian-owned small businesses where eight people were 
murdered, six of them Asian women. Two weeks ago I met with 
President Biden to discuss how the administration can work with 
the AAPI community to put a stop to this hatred, and then last 
week the Senate took a big step toward by passing the COVID-19 
Hate Crimes Act which will come to the House in May and 
contains the text of my bill, the No Hate Act.
    I am so impressed that you have managed to grow your small 
business so successfully when you faced not just the pandemic 
but also anti-Asian discrimination. So can you talk about what 
you have done to overcome these hurdles and run your business 
so successfully? And what advice would you give to other AAPI 
small businesses that have some fears and trepidation right 
now?
    Ms. CHEN. Thank you, Representative Chu, for your work in 
this AAPI community.
    So specifically for us, we have an extensive community 
support. I think Waco is a phenomenal community that really is 
seeking to uplift diverse communities. And so as business 
owners, we have been able to take part of organizations like 
the Hispanic Chamber, African American Chamber, and they have 
provided such support and even standing against the anti-Asian 
racism and hate crimes throughout the country. And we have a 
lot of relationships that we have been able to build with other 
community leaders and other partnerships. And I think that is 
what has helped us to continue doing what we do. To recognize 
that we are not alone in this work that we do even as a 
minority within our own community has been huge to have that 
community care support.
    In addition, I do want to put a plug that I, myself, and my 
husband, have gotten therapy through this time. And so as a 
business owner, being able to have access to therapy services 
was huge to be able to continue working through our own trauma 
responses in the midst of all that is going on nationally.
    And so advice to business owners, I would say recognizing 
that there are a lot of leaders and individuals who want to 
support your work and so it is more of trying to find those 
allies and to be able to find the business partnerships and the 
collaborations that are going to continue pushing you forward 
in your work.
    Ms. CHU. Thank you so much.
    Mr. Kallick, we know that family ties strengthen immigrant 
communities which in turn help us bolster the economy. 
Recently-arrived immigrants represent 30 percent of new 
entrepreneurs, despite the fact that they make up only 13 
percent of the population. So immigrants are building the small 
businesses here in the U.S. which helps us all. And family-
based immigrants make such huge contributions to the U.S. 
economy. In fact, immigrant families help businesses survive 
sometimes by pooling money or by providing childcare. They are 
essential to it.
    And that is why family-based immigrants have added $2 
trillion to the U.S. GDP in 2016. And that is why I introduced 
the Reuniting Families Act, which addresses the family 
immigration visa backlog and unifies immigrant families. And I 
am proud that this is part of the proposed U.S. Citizenship Act 
which will reform our immigration system in such a 
comprehensive way but also allow more immigrants and families 
to build their businesses in our communities.
    So what does your research show about the impact of family-
based immigration in communities and small businesses? Do you 
think a policy like the Reuniting Families Act, which is in the 
U.S. Citizenship Act, could that help bolster economic 
development in immigrant communities?
    Mr. KALLICK. I do. I think we do very well in the United 
States with the immigration that we get. And as you know, the 
primary source of immigration is through family unification. So 
I think it is quite striking how you can think about ways of 
shifting what immigrants might be coming here, but the reality 
is that immigrants who have been coming to the United States 
make up for all of the statistics you have been hearing so far 
and that is primarily family-based immigration. Many of the 
entrepreneurs that you hear about, you know, the sort of 
superstar entrepreneurs who start the unicorn, the companies 
that become gigantic companies, they did not come here as 
special immigrant visas in order to be entrepreneurs. They came 
here as immigrants and then became entrepreneurs.
    Ms. CHU. Thank you. And I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentlelady, Ms. Van Duyne from Texas 
for 5 minutes.
    Ms. VAN DUYNE. Thank you. Thank you very much, Chairman 
Velazquez and Ranking Member Luetkemeyer. I appreciate the 
hearings today.
    Immigrants are some of America's most entrepreneurial 
citizens, and everyone benefits from the jobs their businesses 
create and the services that they provide. While the Biden 
administration may speak positively about small business owners 
and American entrepreneurship, their actions continue to 
inflict unnecessary pain on small business owners around the 
country. Continued encouragement for COVID restrictions, tax 
increases, and luxurious unemployment benefits all hamper small 
businesses' ability to be able to do even the most essential 
things.
    I have heard from so many small businesses that have 
reached out to me and my office to tell me that they are having 
trouble hiring staff because they have to compete with the U.S. 
Government's seemly never-ending unemployment benefits. And as 
Young Kim had mentioned earlier----
    Ms. CHU. Well, Jaja Chen seemed to----
    Ms. VAN DUYNE. We are hearing this over and over again. You 
know, when I am back in the district I have gone out to 
restaurants, and these are either high-end, these are small 
immigrant-owned diners, and they are all telling me the same 
thing. They cannot hire people because they are competing with 
the U.S. Government handing out more money than these people 
are getting paid on the job.
    By the way, these are not only folks who are getting paid 
more than a minimum wage but people who are getting $20, more 
than that per hour, but they are having a hard time hiring 
people.
    I talked to one business owner just last week who said he 
has got 300 openings and cannot get people to apply. This is 
not really helping our economy to open up at all, and I am sure 
that small business owners, including those here with us today, 
do not want government handouts. They want the government to 
get out of their way so they can provide consumers with their 
products, their services, and expertise.
    The reason our immigrant small businesses have such great 
success is not because of the government but rather because 
they have that can-do mentality that this country was built on. 
The Federal Government's role is not to pick winners or losers 
but to allow the greatest opportunity for our citizens to 
flourish no matter how many generations a family has been here.
    I appreciate all the stories that we have heard today but I 
am also concerned about the small businesses not just in my 
district but across the country and what they are seeing.
    And Mr. Ponce--am I saying that? Is it Mr. Ponce or Mr. 
Ponce? I would love to get your----
    Mr. PONCE. Ponce.
    Ms. VAN DUYNE. I would love to get your feedback on have 
you seen any kind of negative or positive experience from the 
extending of these luxurious unemployment benefits?
    Mr. PONCE. Representative Van Duyne, thank you so much for 
your question. And to better answer it, yes. Here in our local 
community and our local market you do find yourself noticing, 
as I notice as a business owner, that the government is way too 
much involved in our small business practices and they do not 
allow us to, you know, really, really grasp and grow as an 
entrepreneur. When it comes to the unemployment versus the 
minimum wage, the unemployment right now and the subsidies that 
people are I would say quite frankly taking advantage of 
because the government allows it, you know, yes, there is a big 
issue. We have local restaurants and colleagues that own them 
that are good friends of mine that are having issues trying to 
reinstate employment with the current people that were employed 
before but unfortunately, because of the fact that unemployment 
is paying better if you will, it makes it difficult for them to 
reattract the previous employee to come back to work. It really 
does bring a challenge here I would say here in our market to 
really help really get back and restabilize as a business owner 
and as a company when you are actually having to battle the 
government and their subsidies and their opportunities to 
basically make it easier for them not to gain gainful 
employment. Thank you.
    Ms. VAN DUYNE. I appreciate that.
    You know, you have owned a small business now for the last 
20 years having navigated the lending process. What do you wish 
you knew then that you know now?
    Mr. PONCE. Well, that is a very good question. I think 
honestly if I had to start this all over again the only change 
that I would make is I would definitely really educate myself 
on the whole banking policies and how banking works because I 
probably would have took a step back and limit my pace of how I 
wanted to grow. I would slow everything back down because I 
took a lot of risk growing and building my business, 
Representative Van Duyne. And if I would have known what I know 
now I probably would not have taken as much of the risk because 
I really thought that by building this on my own and growing 
this business on my own and using my own financial means it was 
going to give me the credibility to really go to these big 
banks and these big institutions and begin to raise capital to 
continue to grow our business. But unfortunately, that was not 
the case.
    Chairwoman VELAZQUEZ. The gentleman----
    Mr. PONCE. Thank you.
    Ms. VAN DUYNE. Thank you very much. I yield back.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    Now we recognize the gentleman, Mr. Evans from 
Pennsylvania, for 5 minutes.
    Mr. EVANS. Thank you, Madam Chair and Ranking Member. Thank 
you for your leadership, Madam Chair, on this very important 
subject. If anything is going to build back it is what we are 
talking about today.
    I would like to start with Mr. Daniel Fitzgerald. What can 
Congress do more to make sure that our Small Business 
Development Centers are fully prepared to help immigrants from 
all backgrounds?
    Mr. FITZGERALD. I think it is, continue to support the 
programs. What our experience was when were able to receive 
some increased funding from the state of California was we were 
able to expand more into the communities. That is when we were 
able to add in International Rescue Committee and the Asian 
Business Association. That coincided with the increase in 
funding that we received at the same time from Congress as it 
has increased for small business development centers. The 
reality is that the demand continues to outstrip the resource, 
but as we are able to get more resources, we are able to hire 
more advisors that are part of the community that are 
linguistically and culturally correct. And that is really what 
supports our efforts to be able to do it. We invest back into 
the community, providing that type of individual work that has 
been talked about with the business owner.
    Mr. EVANS. What would you say are the most in-demand 
services by immigrants that seek help at your business center?
    Mr. FITZGERALD. Really what it is navigating the U.S. 
system. That is either the lending and banking system, credit 
system, but also the layers of government, understanding what 
is a county, what is a city, and what are some of those 
differences. Or really how the credit market works and how 
credit scoring works. And so a lot of that is around how those 
particular systems work because it literally is not something 
they are used to. And so we work with them and that is why we 
also have what we call the culturally correct approach to it 
where if someone is from Mexico, if someone is from Iraq, have 
advisors that are familiar or even are from those countries to 
be able to create some information and be able to help them 
understand how the U.S. systems works similarly to how it 
worked from their country of origin and really be able to 
support them. Really help them understand what they need to do. 
For example, I need to go to the county to get a health permit. 
Or what it is I need to do to make sure that, yes, I have a 
business banking account. How is that different from my 
personal banking account? And understanding that even small 
credit loans are able to help build credit and establish credit 
which can then help them in the future to be able to grow their 
business with even larger loans.
    Mr. EVANS. I yield back my balance, Madam Chair. And thank 
you for the opportunity. Thank you, sir.
    Mr. FITZGERALD. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from Wisconsin, Mr. 
Fitzgerald.
    Mr. FITZGERALD of Wisconsin. I am going to yield back, 
Madam Chair. I do not have anything very specific right now. 
Thank you very much.
    Chairwoman VELAZQUEZ. That concludes our hearing today.
    I want to take this opportunity to thank all of our 
witnesses for their testimony. Today you showcased the 
incredible power of immigrant-owned businesses and how vital 
they are to our recovery. When it comes to entrepreneurship, 
immigrants are leading the way. As business startup rates have 
dropped overall, immigrants have filled the gap creating jobs 
and helping our economy keep pace. COVID has devastated these 
same businesses. If we genuinely want to build back better, we 
must ensure they have the support need to recover. I hope that 
today's hearing drove home the importance of these businesses 
to our economy and will yield actions to help build them up. I 
look forward to collaborating with my colleagues on both sides 
of the aisle as we work to harness the power of these 
businesses and drive an equitable recovery.
    I would ask unanimous consent that Members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 2:04 p.m., the Committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
